                                     Office of Inspector General
                                 Export-Import Bank of the United States
o n g r e ss
C
t o
e p o r t
R
a n n u a l
Semi




               April 1, 2010 to September 30, 2010
T   he Export Import Bank of the United States
     The Export-Import Bank of the United States (Ex-Im Bank) is the official export credit
     agency of the United States. Ex-Im Bank supports the financing of U.S. goods and
     services in international markets, turning export opportunities into actual sales that
     help U.S. companies of all sizes to create and maintain jobs in the United States.

     Ex-Im Bank assumes the credit and country risks that the private sector is unable
     or unwilling to accept. Ex-Im Bank also helps U.S. exporters remain competitive by
     countering the export financing provided by foreign governments on behalf of foreign
     companies. More than 80 percent of Ex-Im Bank’s transactions in recent years have
     been made available for the direct benefit of U.S. small businesses.

     In fiscal year 2010, Ex-Im Bank authorized transactions totaling $24.5 billion. Ex-Im
     Bank is an independent executive agency and a wholly owned U.S. government
     corporation that celebrated 75 years of service to the nation in 2009.

     Information about the Bank is available at www.exim.gov.




O   nline Availability
     Reports of OIG audits, evaluations, and other activities are available at
     www.exim.gov/oig.

     Information about the responsibilities of Inspectors General across the U.S.
     Government can be found at www.ignet.gov.




A   dditional Copies
     For additional copies of this report, or reports from prior periods, write:


        Office of Inspector General
        Export-Import Bank of the United States
        811 Vermont Avenue, NW
        Washington, DC 20571

        Or call: (202) 565-3908
                                          EXPORT-IMPORT BANK
Osvaldo L. Gratacós                        of the UNITED STATES
Inspector General




                                                October 26, 2010


Fred P. Hochberg
Chairman and President
Export-Import Bank of the U.S.
811 Vermont Avenue, N.W.
Washington, DC 20571


Dear Chairman Hochberg:


This Semiannual Report to Congress of the Office of Inspector General (OIG) of the Export-Import Bank of
the United States (Ex-Im Bank) summarizes the work of the OIG during the reporting period of April 1, 2010
to September 30, 2010. During this time, OIG staff completed significant audits and investigations of Ex-Im
Bank programs and operations, while laying the groundwork for expanded operations in the future.

The reporting period is highlighted by the following accomplishments:
      1.	 Twenty-million dollars in Ex-Im Bank cost savings arising from investigative work in collaboration
          with Ex-Im Bank management related to policy cancellations
      2.	 Forty-five indictments, informations, arrests, and plea deals made as the result of this office’s
          investigative efforts
      3.	 Thirty-eight referrals to Ex-Im Bank management concerning potential fraudulent schemes and/or
          participants to support future enhanced due diligence efforts
      4.	 Review of Ex-Im Bank’s Economic Impact procedures
      5.	 Follow up reviews of Ex-Im Bank’s Medium-Term program
      6.	 Audit of Ex-Im Bank’s sponsored-travel procedures




                           811 Vermont Avenue, N. W. Washington, D. C. 20571
 Page Two
 Transmittal Letter
 Chairman Hochberg



I am very proud of the fine work of the OIG staff and its leadership team of Jean Smith, Assistant Inspector
General for Audits, and Larry Valett, Assistant Inspector General for Investigations, in achieving the results
described in this report. I look forward to providing future reports to Congress of the expanding work of this
new office as it accomplishes the OIG mission within Ex-Im Bank.




Osvaldo L. Gratacós
Inspector General
   Semiannual Report to Congress
          Overview &Testimony




   OVERVIEW &
CONGRESSIONAL
    TESTIMONY




                            Page 3
Office of Inspector General
Export-Import Bank of the United States




               THIS PAGE IS INTENTIONALLY BL ANK




Page 4
                                                             Semiannual Report to Congress
                                                                                 Overview



The Office of Inspector General (OIG), an independent
office within the Export-Import Bank of the United
States (Ex-Im Bank), supports Ex-Im Bank’s mission and                       Overview
goals by working to promote economy and efficiency in
Ex-Im Bank operations while preventing, detecting, and
responding to fraud, waste, and abuse involving Ex-Im Bank
programs and operations. The Inspector General Act of 1978
(IG Act), as amended, charges the Inspector General with responsibility
for conducting audits, evaluations, inspections, and investigations and keeping
the Chairman of Ex-Im Bank and Congress fully and currently informed about
problems and deficiencies relating to the administration of Ex-Im Bank programs
and operations.

The Ex-Im Bank OIG was created in 2002 and organized in August 2007. At the
end of this reporting period, the OIG had a staff of ten career professionals (five
criminal investigators, three auditors, an attorney, and an administrative specialist).
Since October 7, 2009, Deputy Inspector General and Counsel, Osvaldo L. Gratacós,
had served as Acting Inspector General. Mr. Gratacós was confirmed by the U.S.
Senate as Inspector General on September 29, 2010. During the reporting period,
Ex-Im OIG has increased audit, evaluation, and investigative activity, a trend
expected to continue in succeeding reporting periods.

In addition to the audits, reviews and investigations described in the following
sections of this report, activities during this period included the following:
  ••   Regularly met with Ex-Im Bank’s Office of General Counsel and Asset
       Management Division staff to discuss and coordinate referrals to the OIG
       of claims and other matters where evidence indicating the possibility of
       fraudulent acts has been identified
  ••   The Acting Inspector General testified before the Subcommittees on
       Oversight and Investigations and International Monetary Policy and Trade,
       U.S. House Committee on Financial Services. The testimony focused on
       steps taken by Ex-Im Bank in promoting exports and achieving President
       Obama’s National Export Initiative goals
  ••   Met with other Export Credit Agencies to discuss and share steps to improve




                                                                                          Page 5
Office of Inspector General
Export-Import Bank of the United States



                      performance and operations and to discuss fraud trends in certain markets
                 ••   Created and filled a new position (Inspector) that will allow Ex-Im OIG to
                      conduct on-site inspections throughout all phases of Ex-Im Bank transactions
                      to assess transaction integrity and conformity to applicable laws and
                      representations made to Ex-Im Bank — the incumbent has extensive capital
                      and project finance experience within an international lending institution
                 ••   Expanded strategic partnerships and collaboration with other federal law
                      enforcement agencies to further our abilities to investigate fraud
                 ••   Trained several of Ex-Im Bank’s lending partners on identifying and
                      reporting fraud, waste, and abuse in export programs
                 ••   Addressed several matters of common interest with Ex-Im Bank’s
                      Audit Committee in a mutually supportive manner consistent with the
                      independence of the OIG and a positive relationship with Ex-Im Bank
                 ••   Participated in monthly meetings with Inspectors General of other agencies
                      responsible for regulating the U.S. financial sector to discuss issues of
                      common interest, including agency and inspector general responses to the
                      international financial crisis
                 ••   Assisted Ex-Im Bank leadership in assessing ways to improve programs and
                      operations in anticipation of Ex-Im Bank’s role as part of the National Export
                      Initiative unveiled by President Obama during his State of the Union address
                 ••   Participated in the Council of Inspectors General on Integrity and Efficiency
                      efforts in proposing legislative changes to the Paperwork Reduction Act, IG
                      Reform Act, and IG Subpoena Authority bill




Page 6
                                                             Semiannual Report to Congress
                                                                  Congressional Testimony



On September 29, 2010, the U.S. House of Representatives                Congressional
Committee on Financial Services invited Acting Inspector
General Osvaldo L. Gratacós to provide testimony before
a joint hearing of the Subcommittee on Oversight and                     Testimony
Investigations and the Subcommittee on International
Monetary Policy and Trade. The hearing addressed "Ex-Im
Bank Oversight: The Role of Trade Finance in Doubling Exports
over Five Years”.

The hearing focused on the work of Ex-Im Bank — reviewing its activities to
promote export growth, especially since the onset of the global financial crisis and
recession which made credit availability more challenging for businesses. The
subcommittees also assessed what role Ex-Im Bank is and should be playing in the
Obama Administration's National Export Initiative to double exports over five years.

Mr. Gratacós’ testimony highlighted the significant progress made by Ex-Im Bank
in its outreach efforts to U.S. small businesses. He also outlined general challenges
Ex-Im Bank is facing in achieving the goal of doubling exports over five years and
increasing the participation of small business exporters. Some of these challenges
include:
      1.	 Inefficient and ineffective information technology (IT) platform
      2.	 Compliance and oversight procedures for delegated authority
      3.	 Enhancement of due diligence and credit underwriting practices and
          training efforts to address the surge in applications and potential
          decentralized application approval process
      4.	 Limited staff resources
      5.	 Need to develop appropriate performance standards and metrics
      6.	 Properly develop simplified application processes, training, and
          educational materials for first-time exporters




                                                                                        Page 7
Office of Inspector General
Export-Import Bank of the United States



                     7.	 Continue collaboration and cooperation with other agencies, including
                         the Small Business Administration and Department of Commerce in
                         order to reach out to small businesses

               A complete copy of Mr. Gratacós’ testimony can be found at:

               http://financialservices.house.gov/Media/file/hearings/111/Gratacos092910.pdf




Page 8
Semiannual Report to Congress
              Office of Audit




   OFFICE OF
      AUDIT




                         Page 9
Office of Inspector General
Export-Import Bank of the United States




               THIS PAGE IS INTENTIONALLY BL ANK




Page 10
                                                   Semiannual Report to Congress
                                                                 Office of Audit



                                                                Milestones
  The OIG completed six reviews
    during the six months ended                                     &
            September 30, 2010                               Accomplishments
1.	 Sponsored Transactional Travel
2.	 Follow-Up of Audit Recommendations Reported In Medium
    Term Export Credit Program — Information Technology (IT) Systems,
    Support and Governance
3.	 Follow-Up of Audit Recommendations Reported in Medium Term
    Export Credit Program Credit and Fraud Risk Management and Business
    Process Improvement
4.	 Equal Employment Opportunity
5.	 Explicit Computer Usage
6.	 Evaluation Report Relating to Economic Impact Procedures

    At the end of the reporting period, the Office
             of Audit had two reviews in process
1.	 Ex-Im Bank’s Financial Statements for Fiscal Year 2010
2.	 Fiscal Year 2010 Information Security Program and Practices and
    Technical Configuration Reviews




                                                                           Page 11
Office of Inspector General
Export-Import Bank of the United States



                                         Sponsored Transactional Travel
          Audits Issued                   (OIG-AR-10-04, June 04, 2010)

                                         http://www.exim.gov/oig/documents/Sponsored_Transactional_Travel_
                                        audit_report.pdf


                              The OIG conducted an audit of sponsored transactional travel taken by
                 employees of Ex-Im Bank during FYs 2008 and 2009. The specific audit objectives
                 were to determine whether non-federal sponsored transactional travel: (1) policies
                 and procedures comply with federal regulations; (2) controls are adequate to ensure
                 compliance with regulations; and (3) policies and procedures on the collection of
                 reimbursements are adequate.

                 The audit found that Ex-Im Bank has the authority to accept reimbursement from a
                 non-federal source for travel expenses incurred in connection to a Bank transaction.
                 In fiscal years (FY) 2008 and 2009, Ex-Im Bank authorized 104 sponsored
                 transactional trips from non-federal sources. Of these 104 trips, we selected a sample
                 of 39 for our review. These 39 trips were associated with 25 transactions, and as of
                 March 26, 2010, Ex-Im Bank approved 18 transactions, six were pending, and one
                 withdrew from Ex-Im Bank’s consideration. According to an Ex-Im Bank official,
                 offers from non-federal sources to reimburse the agency for travel expenses are not
                 accepted if the transaction does not have approval potential.

                 Ex-Im Bank generally complied with its established policies and procedures regarding
                 the approval process, documentation requirements, and collection from sponsors.
                 We did not identify a conflict of interest between the Ex-Im Bank employee and the
                 sponsor. Additionally, travel authorizations contained the required documentation
                 and approval by the employee’s supervisor and Ethics Official.

                 Of the 39 sampled cases reviewed, the Office of the Controller wrote off
                 approximately 2 percent of the billed amount. As of the end of FYs 2008 and 2009,
                 the outstanding reimbursable balances for all sponsored travel were $28,854 and
                 $158,266, respectively. These balances include sponsored transactional travel and
                 other sponsored travel (e.g., conference, seminar, and speaking engagement). Ex-Im
                 Bank did not separate sponsored travel reimbursable expenses by type.




Page 12
                                                            Semiannual Report to Congress
                                                                          Office of Audit



While Ex-Im Bank’s efforts were positive, we noted that improvements are needed in
its policies and procedures to obtain travel expense reimbursement from the sponsor.
We recommended that:
  ••   The Office of Administration and Security Director develop a policy and
       related procedures to follow-up on travel vouchers not submitted within the
       established time frame
  ••   The Office of Administration and Security Director establish procedures to
       review travel authorizations for accuracy
  ••   The Assistant Controller establish procedures to review bills for accuracy
       prior to sending them to the sponsors

Subsequent to our fieldwork conducted for this audit, management implemented all
recommended actions.




                                                                                       Page 13
Office of Inspector General
Export-Import Bank of the United States



                                        Follow-Up of Audit Recommendations
          Evaluations                    Reported in Medium Term Export
                                         Credit Program — Information
            Issued                      Technolog y (IT) Systems, Support and
                                       Governance(OIG-EV-10-01, June 30, 2010)

                http://www.exim.gov/oig/documents/OIG_EV_10_01.pdf

                The OIG contracted with an independent public accountant firm (IPA) to evaluate
                corrective action taken by management on findings and recommendations previously
                reported in Medium Term Export Credit Program — Information Technolog y
                (IT) Systems, Support and Governance (OIG-AR-09-05, June 12, 2009).

                The evaluation found that Ex-Im Bank addressed many of the deficiencies.
                Although the specific recommendations may not have been implemented fully, Ex-Im
                Bank had taken the necessary actions to establish appropriate controls in most of
                the areas that needed strengthening. Based on these actions, we closed four of five
                recommendations reported in OIG-AR-09-05.

                For the remaining open recommendation, the Office of the Chief Information
                Officer will publish an IT Strategic Plan, which will include specific Medium Term
                objectives, three months after the completion of Ex-Im Bank’s Strategic Plan. The
                IT strategies and plans will align and integrate each program’s IT requests with
                Ex-Im Bank-wide goals and priorities and address specific objectives and goals for the
                support of the Medium Term short term and long term objectives. The IT Strategic
                Plan is anticipated to be finalized by December 2010.




Page 14
                                                                Semiannual Report to Congress
                                                                              Office of Audit



                  Follow-Up of Audit Recommendations Reported
                  in Medium Term Export Credit Program Credit
                and Fraud Risk Management and Business Process
                      Improvement (OIG-EV-10-02, July 7, 2010)

http://www.exim.gov/oig/documents/Follow_Up_of_Audit_Recommendations_10_02.pdf

The OIG contracted with an IPA to evaluate corrective action taken by management
on findings and recommendations previously reported in Medium Term Export
Credit Program — Credit and Fraud Risk Management and Business Process
Improvement (OIG-AR-09-04, March 30, 2009)

The evaluation found that Ex-Im Bank had taken the necessary actions to establish
appropriate controls to address many of the deficiencies. Based on these actions, four
of eight recommendations reported in OIG-AR-09-04 were closed at the time of this
evaluation.

Subsequent to this evaluation, management had taken action to close three of the
four open recommendations. The remaining open recommendation is to develop
and document a strategic plan for the Medium Term program and strategies that
management will deploy to achieve the goals, including the use of technology and
targets for key performance measures. Management anticipates the plan to be
finalized by October 31, 2010.




                                                                                         Page 15
Office of Inspector General
Export-Import Bank of the United States



               Equal Employment Opportunity
               (OIG-SR-10-01, August 17, 2010)

               http://www.exim.gov/oig/documents/EEO%20Final%20Report%20OIG-SR-10-01.pdf

               The OIG performed a limited review to address an inquiry from Senator Charles E.
               Grassley on the adequacy of Ex-Im Bank’s Equal Employment Opportunities (EEO)
               program. Our specific objectives were to determine whether Ex-Im Bank has policies
               in place to promote EEO and assess the degree to which the Equal Opportunity and
               Diversity Programs (EODP) Office is independent.

               We found that Ex-Im Bank has policies to promote EEO. However, the EODP
               Director should schedule a technical assistance review to be performed by the U.S.
               Equal Employment Opportunity Commission. This review was originally scheduled
               for March 2010 but was cancelled by the Director.

               Because the EODP Director does not report directly to the agency head, Ex-Im Bank
               is exposed to the appearance that the EODP Office is not independent. Currently,
               the EODP Director reports to the Director of Human Resources and Senior
               Vice President of Resource Management. To strengthen Ex-Im Bank’s efforts in
               accomplishing its EEO mission, we suggest that the Chairman and President direct
               the EODP Director to report directly to the Chairman and President.

               The Senior Vice President and General Counsel stated that Ex-Im Bank will
               implement the suggested actions.




Page 16
                                                                   Semiannual Report to Congress
                                                                                 Office of Audit



                                                  Explicit Computer Usage
                                           (OIG-SR-10-02, August 26, 2010)

http://www.exim.gov/oig/documents/Explicit_Computer_Usage_Special_Report.pdf

The OIG performed a limited review to address an inquiry from Senator Charles E.
Grassley on the viewing, downloading, and possible distribution of pornography at
Ex-Im Bank. Our specific objectives were to determine whether Ex-Im Bank has (1)
policies on information technology use and disciplinary guidance and (2) controls to
prevent and identify Ex-Im Bank employees accessing sexually explicit material on
government computers.

Our evaluation found that Ex-Im Bank has policies and annual employee training on
the proper use of government computers. Additionally, Ex-Im Bank’s Policy 752 —
Employee Conduct and Discipline provides the basic rules of discipline for Ex-Im
Bank.

Controls are in place to block employee computers from accessing sexually explicit
material, monitor computer activity, and take appropriate action to prevent further
illicit access and report incidents. The Office of the Chief Information Officer
maintains Internet and e-mail blockers to prevent access to prohibited sources,
reviews activity logs daily, and takes necessary appropriate action. When employee
misuse is identified, the Chief Information Officer submits a Security Incident
Report for further processing by General Counsel. However, the OIG is not alerted
to the incident.

General practice by government agencies is to report misconduct to the IG. We
suggest that the Chief Information Officer includes the IG in the distribution
of Security Incident Reports on computer misuse involving incidents referred to
management for disciplinary actions.

The Chief Information Officer stated that incident reports will be provided to the IG
after the Office of General Counsel reviews the reports.




                                                                                           Page 17
Office of Inspector General
Export-Import Bank of the United States



               Evaluation Report Relating to Economic Impact Procedures
               (OIG-EV-10-03, September 17, 2010)

               http://www.exim.gov/oig/documents/EIB_Report_Final_Complete_Web.pdf

               The OIG completed its evaluation of Ex-Im Bank’s economic impact procedures, as
               most recently amended in April 2007. The objectives of this evaluation were to:
                  ••   Independently evaluate Ex-Im Bank’s economic impact procedures as well
                       as critiques and suggestions for improvement delivered by members of
                       the Bank’s Board of Directors and management, transaction participants,
                       Congress, and other U.S. government agencies having a role in the economic
                       impact review process. The observations and recommendations of the U.S.
                       Government Accountability Office (GAO) from the 2007 report Export-
                       Import Bank — Improvements Needed in Assessment of Economic
                       Impact (GAO-07-1071) were also reviewed for this report.
                  ••   Identify opportunities to improve the efficiency and effectiveness of the
                       economic impact procedures within the constraints of existing statutory
                       requirements, the requirements of transaction proponents, and the resources
                       available to Ex-Im Bank.

               The evaluation determined that Ex-Im Bank’s economic impact procedures can
               be revised to better implement the intent of Congress that the Bank’s Board of
               Directors (not the Bank’s officers and staff) decide economic impact cases. The
               procedures could also be revised to improve transparency and to make the economic
               impact review process more manageable for U.S. exporters and other participants.
               The small number of transactions requiring a full economic impact review that have
               been submitted to Ex-Im Bank in recent years suggests that the Bank’s approach to
               economic impact analysis has discouraged U.S. exporters of capital equipment from
               applying for Ex-Im Bank support.

               Implementation of the suggested actions made in this Report should reduce the
               uncertainty, delay, and cost associated with transactions requiring economic impact




Page 18
                                                           Semiannual Report to Congress
                                                                         Office of Audit



review, and advance the Bank’s mission of creating jobs for American workers by
expanding U.S. exports. The suggested actions specifically addressed the following:
  ••   Improve economic impact procedures and reports to better support the
       Board’s Congressionally mandated role in deciding economic impact cases
  ••   Develop improved criteria to guide the Board and staff in deciding economic
       impact cases
  ••   The Bank should improve the transparency of its economic impact
       procedures and its economic impact determinations
  ••   The Bank should improve the efficiency and responsiveness of the economic
       impact procedures by simplifying the process and reallocating resources

The OIG acknowledges active assistance and support for this report and does
not claim sole credit for many of the findings and suggestions. The findings and
suggestions were based on discussions with Ex-Im Bank's Policy and Planning
Group, management and Board, as well as other interview subjects, including
representatives of the Reviewing Agencies.




                                                                                      Page 19
Office of Inspector General
Export-Import Bank of the United States



                                         Ex-Im Bank’s Financial Statements
    On-going Audits                       for Fiscal Year 2010

                                     An IPA, working under OIG oversight, is performing an
                                   audit of Ex-Im Bank’s FY 2010 financial statements. The
                                 IPA is also performing audit follow-up work on the seven
                             recommendations made in the FY 2009 Financial Statement
                      Audit — Management Letter (OIG-AR-10-03, March 9, 2010).
               http://www.exim.gov/oig/documents/management_letter_web_posting.pdf

               Audit work commenced in May 2010. The OIG anticipates the IPA will issue its
               opinion on the FY 2010 financial statements in November 2010.



               Fiscal Year 2010 Information Security Program and
               Practices and Technical Configuration Reviews

               The Federal Information Security Management Act (FISMA) requires an annual
               independent evaluation of U.S. government agency information security programs
               and practices. The OIG contracted with an IPA to perform the FY 2010 FISMA
               review of Ex-Im Bank’s systems.

               The audit includes assessing Ex-Im Bank’s progress in developing, documenting,
               and implementing an agency-wide program to provide security for the information
               and information systems that support operations and assets of Ex-Im Bank. The
               audit also includes reviewing Ex-Im Bank’s privacy program and the privacy
               impact assessment process and performing audit follow-up work on the four
               recommendations made in the audit report Fiscal Year 2009 Information Security
               Program and Practices and Technical Configuration Reviews (OIG-AR-10-02,
               January 25, 2010) http://www.exim.gov/oig/documents/jan2010audit.pdf

               Audit work commenced in July 2010. The OIG anticipates the IPA to respond to
               the Office of Management and Budget reporting requirements on the audit results in
               November 2010 and issue an audit report in December 2010.




Page 20
                                                            Semiannual Report to Congress
                                                                          Office of Audit



The IG Act states that each Inspector General shall give               Government
particular regard to the activities of the Comptroller General
of the United States with a view toward avoiding duplication
and ensuring effective coordination and cooperation.
                                                                      Accountability
During this period, the GAO referenced Ex-Im Bank in three
                                                                          Of fice
GAO reports:



Reaching New Targets for Environmentally Beneficial Exports
Presents Major Challenges for Bank (GAO-10-682, July 2010)

       In FY 2008, Congress directed Ex-Im Bank to allocate 10 percent of its
       annual financing to renewable energy and environmentally beneficial
       products and services. For FYs 2009 and 2010, Congress directed Ex-Im
       Bank to allocate 10 percent to renewable energy and energy efficient end-use
       technologies.

       GAO conducted this audit to review Ex-Im Bank’s efforts to meet
       congressional directives concerning environmental exports financing. GAO
       found that Ex-Im Bank financing for environmentally beneficial exports
       in general, and the smaller renewable energy and energy efficient end-use
       portion, has been well short of the 10 percent congressional target.

       GAO recommended that Ex-Im Bank (1) develop clear definitions for its
       subcategories of environmentally beneficial exports — specifically energy
       efficient end-use exports — and report its financing in these areas, and (2)
       consistently implement key strategic planning practices in this area.




                                                                                       Page 21
Office of Inspector General
Export-Import Bank of the United States



               Export Promotion: The Export-Import Bank’s Financing of
               Dual-Use Exports (GAO-10-1052R, September 15, 2010)

                    Ex-Im Bank has statutory authority to provide loans, guarantees, and
                    insurance to help finance U.S. exports of defense articles and services,
                    provided that it determines these items are non-lethal and meant primarily
                    for civilian use (dual-use)

                    As required by legislation, GAO reported on Ex-Im Bank’s financing for
                    dual-use exports in FYs 2007 through 2009. GAO reported that Ex-Im Bank
                    did not finance any dual-use exports during this period. GAO found dual-
                    use exports were last financed by Ex-Im Bank in FY 2002.



               Export Promotion: Observations on the Export-
               Import Bank’s Ef forts to Achieve U.S. Policy
               Goals (GAO-10-1069T, September 29, 2010)

                    GAO testified before the Subcommittees on Oversight and Investigations and
                    International Monetary Policy and Trade, Committee on Financial Services,
                    House of Representatives on the role of Ex-Im Bank in promoting exports
                    and achieving other U.S. policy goals. GAO reported that Ex-Im Bank
                    has been identified as having a key role in the President's National Export
                    Initiative of doubling exports in the next 5 years. Between FYs 2003 and
                    2008, Ex-Im Bank authorized financing averaging $12.8 billion annually. In
                    FY 2009, Ex-Im Bank had a record year, financing more than $21 billion in
                    2,891 authorizations.

                    GAO’s work on Ex-Im Bank’s financing found Ex-Im Bank needs to
                    improve its data systems for accurate reporting as well as its tracking of
                    efforts to increase small business financing. Also, Ex-Im Bank needs to
                    more consistently follow strategic planning practices on its environmentally
                    beneficial exports financing. While Ex-Im Bank has taken a number of




Page 22
                                                             Semiannual Report to Congress
                                                                           Office of Audit



    steps in response to GAO recommendations, opportunities for improvement
    remain in assessing its financing with respect to small business and
    environmentally beneficial exports. Additional attention to these issues
    will enable Ex-Im Bank to develop better communication with Congress
    and other stakeholders regarding the balance between the small business
    and environmental export targets and the broader priorities in the National
    Export Initiative.



      Recommended actions remain                                               Audit
     open on two audits reported in                                          Follow-Up
    the previous Semiannual Report


              Medium Term Export Credit Program — Credit
            and Fraud Risk Management and Business Process
              Improvement (OIG-AR-09-04, March 30, 2009)

	   http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_Audit_Report.pdf

    Of the eight recommendations, management reported that it had completed
    action on seven recommendations and plans to complete action on the
    remaining recommendation by October 31, 2010.

    The remaining open recommendation is to develop a strategic plan for the
    Medium Term Program.




                                                                                           Page 23
Office of Inspector General
Export-Import Bank of the United States



               Medium Term Export Credit Program —
               Information Technolog y (IT) Systems, Support, and
               Governance (OIG-AR-09-05, June 12, 2009)

               	    http://www.exim.gov/oig/documents/MTITauditreportfinal.pdf

                    Management reported that corrective action had been completed on four
                    of the five recommendations. The remaining open recommendation is
                    to develop an IT Strategic Plan aligned with the Medium Term Program
                    business plan. Management plans to complete action to satisfy this
                    recommendation by December 2010.




Page 24
   Semiannual Report to Congress
         Office of Investigations




     OFFICE OF
INVESTIGATIONS




                            Page 25
Office of Inspector General
Export-Import Bank of the United States




               THIS PAGE IS INTENTIONALLY BL ANK




Page 26
                                                             Semiannual Report to Congress
                                                                   Office of Investigations



The Office of Investigations achieved several milestones
                                                                       Milestones
and accomplishments during the reporting period towards                    &
meeting mission objectives of investigating trade finance
and export credit fraud impacting Ex-Im Bank. Several               Accomplishments
actions have occurred in on-going investigations resulting
from investments made by the Office of Investigations in
training, infrastructure, and in law enforcement resources.


These actions included:
  •• Achieving $20,494,212 in cost savings for Ex-Im Bank stemming from
       referrals of active investigative information
  ••   Obtaining twenty-three criminal indictments and six criminal informations
       against subjects of on-going investigations
  ••   Twenty-four arrest warrants obtained and ten arrests made by Ex-Im Bank
       OIG Special Agents working both independently and jointly with other law
       enforcement partners
  ••   Executing seven federal search warrants against subjects in on-going
       investigations
  ••   Nine referrals of investigative matters to the Department of Justice for
       prosecutive decision
  ••   Entering six plea agreements in court by subjects pursuant to on-going
       investigative matters
  ••   Thirty-eight referrals of investigative information to the Ex-Im Bank Office
       of General Counsel concerning potential fraud and funds at risk to support
       enhanced due diligence efforts in approving, processing, and monitoring
       export credit loan guarantees and insurance policies




                                                                                      Page 27
Office of Inspector General
Export-Import Bank of the United States



        Summary                        The Ex-Im Bank OIG Office of Investigations evaluates all
                                        reports of possible fraud or illegality affecting Ex-Im Bank
    of Investigations                   programs and activities. Such reports are received from a
                                        variety of sources – Ex-Im Bank employees, Ex-Im Bank
                                       Office of General Counsel, participants in Ex-Im Bank
                                    transactions, other government agencies, and the Ex-Im Bank
                                OIG Hotline. Evaluations that identify reasonable indications of
                        possible fraud or illegality result in an investigation.

               These investigations are summarized in the table below.


                Summary of Investigative           Investigations           No. of          Net Amount
                Activity During Period                 Totals              Claims*          Of Claims**

                Investigations open as of
                                                          35                 410           $327,842,133
                March 31, 2010

                Opened during period                      16                 180            $39,799,300

                Closed during period                      (3)                (86)          ($72,493,960)

                Investigations open as of
                                                          48                 504           $295,147,473
                September 30, 2010
                * The number and net amount of claims subject to investigation. Not all
                  investigations involve claims paid by Ex-Im Bank. The referral of a claim to the
                  OIG for investigation does not establish the existence of fraud, and not all claims
                  included in a case under investigation are necessarily fraudulent until proven so by
                  evidence developed in the investigation. The number of claims may vary during
                  the course of an investigation as facts and findings develop.

                **  The net amount of claims may vary between reporting periods as post-default
                    interest accrues and collection expenses are incurred and as the Bank obtains
                    recoveries of funds through its civil collection efforts. Accordingly, the net dollar
                    amount of claims reported is subject to f luctuation between reporting periods.




Page 28
                                                     Semiannual Report to Congress
                                                           Office of Investigations



                                                                Summary
          The Office of Investigations
        obtained the following actions                       of Investigative
          during this reporting period                            Results


Description                    OIG        Joint Activities      Total

Matters Referred to the
                                6                3               9
Department of Justice

Arrest Warrants Obtained        3               21               24

Arrests Made                    1                9               10

Criminal Indictments,
Informations, Complaints,       4               31               35
Pleas Entered

Criminal Judgments              0                2               2

Prison Time (months)            0               31               31

Probation (months)              0               72               72

Criminal Fines,
                                0           $3,673,223       $3,673,223
Restitution, & Forfeiture

Administrative Actions          17               1               18

Administrative Cost
                            $19,194,212    $1,300,000        $20,494,212
Savings & Repayments




                                                                              Page 29
Office of Inspector General
Export-Import Bank of the United States




             Hotline                       The Ex-Im Bank OIG maintains a Hotline reachable by
                                           telephone, e-mail, or mail to receive reports of fraud, waste,
             Activity                      and abuse in Ex-Im programs and operations. Hotline
                                          reports are evaluated by our investigative team and based
                                        on the available evidence may result in the initiation of an
                                    investigation, referral to other law enforcement authorities having
                             jurisdiction, or referral to management for administrative action.

                  The OIG received four Hotline reports during the reporting period. Three were
                  referred for investigation, and one is currently pending review.

                  Hotline reports can be made by phone at 1-888-EXIM-OIG (1-888-644-3946), by
                  e-mail to IGhotline@exim.gov, or by mail or delivery service to Ex-Im Bank OIG
                  Hotline, Office of Inspector General, Export-Import Bank of the United States, 811
                  Vermont Ave. NW, Washington, D.C. 20571.

                  The OIG will not disclose the identity of a person making a report through the
                  Hotline without their consent unless the Inspector General determines such
                  disclosure is unavoidable during the course of an investigation.




                                        Criminals Use an Array of
          Investigations                Methods to Defraud Ex-Im Bank
                                        Loan Guarantee and Export
                                       Credit Insurance Programs

                  Two of Ex-Im Bank’s key programs – the loan guarantee program and the export
                  credit insurance program (both summarized below) - have been particularly
                  susceptible to fraud schemes by foreign borrowers, U.S. based exporters, and other
                  transaction participants, including deal brokers commonly referred to as “agents”




Page 30
                                                             Semiannual Report to Congress
                                                                   Office of Investigations



or “finders” who assist in arranging the transactions and shipments. These two
programs account for the majority of investigations currently underway. Each
program offers different features to Ex-Im Bank customers, but criminal activity
exploits certain processes within the programs in order to induce the Bank to approve
fraudulent loan guarantees or insurance coverage.

       Summary of Ex-Im Bank’s Loan Guarantee Program
       Ex-Im Bank assists exporters by guaranteeing term financing from a
       commercial lender to creditworthy international buyers, both private
       and public sector, for purchases of U.S. goods and services. Ex-Im
       Bank’s guarantee of a lender’s loan to an international buyer is used to
       finance purchases of U.S. goods and services. Criminals have exploited
       this program by submitting false financial statements of foreign
       borrowers in order to induce Ex-Im Bank to provide its guarantee
       coverage for a loan for which they might otherwise be ineligible and by
       submitting false documentation to the guaranteed lender and Ex-Im
       Bank regarding the shipment, nature, or quantity of the U.S. goods
       allegedly being exported.

Several examples of successful investigative efforts within Ex-Im Bank’s loan
guarantee program during the reporting period include the following:



                                       Export-Import Bank Stops Multi-
                                       million Dollar Fraud in Progress

Ex-Im Bank OIG Special Agents and Ex-Im Bank staff stopped a nearly $6
million fraud in progress when it was discovered that the parties had lied during
the underwriting process. Ex-Im Bank terminated its relationship with the lender
for covering up the fraud. As a result of canceling the lender’s Master Guarantee
Agreement, five pending loan applications totaling over $7.4 million in requests for
financing were also cancelled.




                                                                                        Page 31
Office of Inspector General
Export-Import Bank of the United States



               The fraud was uncovered by Ex-Im Bank staff in the course of a due diligence
               check when they suspected false documents had been provided concerning the
               exportation and payment of millions of dollars in oil rig equipment. The equipment
               had allegedly been exported to Mexico. After referral to Ex-Im Bank OIG, Special
               Agents developed the evidence and information and, in close coordination with the
               Department of Justice’s Fraud Section, moved to stop the transaction. The evidence
               gathered showed that the transaction was fraudulent and designed to lure Ex-Im
               Bank into guaranteeing a loan that, instead of resulting in an export of U.S. goods,
               would have instead resulted in the perpetrators splitting the cash proceeds.

               To protect funds at risk, the OIG provided the evidence to Ex-Im Bank management
               that resulted in Ex-Im Bank’s cancellation of the policy and pending transactions
               and terminating their relationship with the lender. The investigation is continuing
               in close coordination with the Department of Justice Criminal Division’s Fraud
               Section.



               Texas Business Owner and a Mexican Citizen
               Both Charged with Money Laundering and
               Conspiring to Defraud Ex-Im Bank

               A Texas businessman and a co-conspirator have been indicted with money
               laundering and conspiring to defraud Ex-Im Bank of more than $950,000. An
               indictment is merely an allegation and defendants are presumed innocent unless
               proven guilty in a court of law.

               On August 11, 2010, a federal grand jury in the Western District of Texas returned
               an eight-count indictment against Leopoldo Parra, of El Paso, Texas, and Eduardo
               Rodriguez-Davalos, a Mexican citizen residing in El Paso. The indictment alleges
               that Parra, Rodriguez, and others defrauded Ex-Im Bank of more than $950,000
               by engaging in fraudulent and fictitious transactions purportedly involving U.S.
               and Mexican companies. Parra, Rodriguez, and their co-conspirators gave the
               lender false documents stating that U.S. goods had been purchased by, and shipped
               to, Rodriguez in Mexico. By providing the false documents to the lender, the




Page 32
                                                           Semiannual Report to Congress
                                                                 Office of Investigations



defendants defrauded both the lender and Ex-Im Bank by receiving the proceeds of
the loan from the Lender and using them for personal gain. The loan was issued by
a U.S. lending bank based in Baltimore which had insured the loan with a medium-
term insurance policy from Ex-Im Bank. According to the indictment, Parra owned
Poma Tools and Industrial Supplies, a Texas-based equipment dealer.

Parra and Rodriquez were summoned on August 13, 2010 to appear before a U.S.
Magistrate Judge in El Paso. Parra and Rodriguez are each charged with one
count of conspiracy to commit wire fraud, two counts of wire fraud, one count of
conspiracy to commit money laundering, and four counts of money laundering
concealment. They are each facing up to 20 years in prison and fines of up of
$500,000 or twice their gain or loss, whichever is greater.

The case is being prosecuted by the Department of Justice Criminal Division’s Fraud
Section and the U.S. Attorney’s Office for the Western District of Texas. This
case is being investigated by Ex-Im Bank OIG, the Internal Revenue Service, U.S.
Immigration and Customs Enforcement, the Federal Bureau of Investigation, and
the U.S. Postal Inspection Service.



          Six Persons Arrested for Ex-Im Bank Loan Guarantee
                        Fraud in Three Separate Investigations
Pursuant to three other investigations concerning fraud within the Loan Guarantee
Program, six subjects were arrested this period by Ex-Im Bank OIG Special Agents
and other law enforcement partners engaged in joint operations with the Ex-Im Bank
OIG. The subjects were arrested pursuant to federal arrest warrants issued for them
in each of the investigations and cap on-going investigative efforts by the Ex-Im
Bank OIG into the fraudulent sale of U.S. goods to foreign borrowers resulting in
the production of false loan documents, false shipping documents, and the transfer
of cash — in lieu of goods — to foreign borrowers who then default, causing Ex-Im
Bank to pay the claim. These investigations are on-going.




                                                                                      Page 33
Office of Inspector General
Export-Import Bank of the United States




                    Summary of Ex-Im Bank’s Export Credit Insurance Program
                    This program offers protection in the form of several different insurance
                    policy types to U.S. exporters and their lenders against non-payment
                    by foreign buyers due to commercial and political risks. Export credit
                    insurance allows exporters to increase export sales by limiting international
                    repayment risk, offering credit to international buyers, and enabling
                    exporters to access working capital funds. One fraudulent scheme to
                    exploit this program involves the falsification of shipping records to
                    convince Ex-Im Bank that the described goods have been shipped when
                    in fact they have not.

               Examples of successful investigative efforts within the Export Credit Insurance
               program during the reporting period include the following:



               Miami Resident Pleads Guilty to Conspiracy
               to Defraud the Export-Import Bank

               Miami, Florida resident Guillermo Sanchez plead guilty to charges that he conspired
               to defraud Ex-Im Bank of approximately $854,000. Sanchez plead guilty in U.S.
               District Court in Washington, D.C., to one count of conspiracy to defraud Ex-Im
               Bank and one count of mail fraud in connection with ten loans guaranteed by Ex-Im
               Bank.

               According to court documents and testimony at the plea hearing, from approximately
               May 2006 through August 2007, Sanchez acted as a purported exporter of
               construction equipment to South America in ten different loan transactions. The
               loans were obtained from a Florida bank and insured by Ex-Im Bank. Sanchez
               admitted that he and a co-conspirator prepared and submitted loan documents,
               including commercial invoices, packing lists, and bills of lading falsely reflecting
               that Sanchez purchased and shipped approximately $854,000 worth of generators
               manufactured in the United States to South American customers.




Page 34
                                                             Semiannual Report to Congress
                                                                   Office of Investigations



According to court documents and testimony, Sanchez’s company, ACE Products,
received approximately $853,642 in loan proceeds based on the false representations
and Sanchez retained a portion of the money for his own personal benefit and use.
On or about August 2007, defaults on the loan transactions caused Ex-Im Bank
to pay the Florida bank’s claim for outstanding principal and accrued interest of
approximately $854,161.

Sentencing for Sanchez is scheduled for Nov. 1, 2010. The conspiracy charge
carries a maximum prison sentence of five years and the mail fraud charge carries a
maximum prison sentence of 20 years.  Each charge also carries a maximum fine of
$250,000, or twice the gain or loss, whichever is greater. The defendant also faces a
term of supervised release following any prison sentence.

The scheme was investigated by special agents of Ex-Im Bank OIG after bank staff
referred information concerning the loan defaults. This case was prosecuted by
Department of Justice Criminal Division’s Fraud Section.



            Exporter Pleads Guilty to Conspiring to Defraud the
             U.S. Export-Import Bank of more than $24 Million

Guillermo O. Mondino, of Miami, Florida, plead guilty to leading a scheme to
defraud Ex-Im Bank of more than $24 million. Mondino entered his guilty plea in
U.S. District Court in Washington, D. C., before U.S. Magistrate Judge John M.
Facciola. Mondino plead guilty to a two-count criminal information charging him
with one count of conspiracy to defraud the United States and to commit mail fraud
and one count of money laundering.

According to plea documents, Mondino was the owner of Texon Inc., an exporting
company located in Miami. From April 2003 to May 2009, Mondino and others
conspired to defraud Ex-Im Bank by submitting false and fraudulent information
to Ex-Im Bank to obtain approximately $24 million in loans and to misappropriate
certain loan proceeds. Mondino prepared or instructed others to prepare false
documents that would be submitted to lending banks and Ex-Im Bank to facilitate
the fraudulent loan transactions. Mondino and his co-conspirators agreed that a




                                                                                        Page 35
Office of Inspector General
Export-Import Bank of the United States



               smaller amount of the loan proceeds than was represented to Ex-Im Bank would
               actually be used to purchase U.S. goods for foreign buyers, as specified by Ex-Im
               Bank loan program requirements. In some cases, Mondino provided loan proceeds
               to borrowers in cash rather than using the proceeds to purchase goods to be shipped
               to the borrowers. He also commingled the loan proceeds with personal and other
               monies and transferred loan proceeds to bank accounts controlled by co-conspirators.
               Texon and its related entities retained approximately $2.5 million of the loan
               proceeds and Mondino retained approximately $170,000 of the loan proceeds for his
               own benefit and use.

               Also according to plea documents, on September 8, 2008, Mondino transmitted
               by wire approximately $217,647 of criminally derived money from a Texon bank
               account in Miami to the bank account of a freight forwarder in Laredo, Texas.

               Mondino is set to be sentenced in January, 2011 by U.S. District Court Judge
               Ricardo M. Urbina and faces a maximum sentence of 15 years in prison and a
               $500,000 fine. According to the plea agreement, he has agreed to pay more than
               $2.7 million in forfeiture and to pay restitution in full as of the date of sentencing of
               more than $12.5 million.

               The case is being prosecuted by Department of Justice Criminal Division’s Fraud
               Section and is being investigated by the Ex-Im Bank OIG, the Internal Revenue
               Service - Criminal Investigations Division in Washington, and the U. S. Postal
               Inspection Service Miami Division.



               Four Persons Arrested for Ex-Im Bank Export Credit
               Insurance Fraud in Two Separate Investigations

               Four persons were arrested by Ex-Im Bank OIG Special Agents and other law
               enforcement partners in two on-going investigations concerning fraudulent activity
               within the Ex-Im Bank export credit insurance program. The arrests were pursuant
               to federal arrest warrants issued for the subjects for their role in various fraud
               schemes involving the program and cap investigative efforts to examine allegations




Page 36
                                                             Semiannual Report to Congress
                                                                   Office of Investigations



of fraudulent claims associated with the program. Typically, fraud alleged within
the program concerns the falsification of loan applications and shipping records
associated with the need for export credit from a lender, and export credit insurance
products offered by Ex-Im Bank. The loan proceeds are then embezzled by the
parties, after which an insurance claim is submitted to, and paid by, Ex-Im Bank in
the event of a loan default.



                                                                                  Other
       Special Agents Collaborate with Ex-Im
          Bank to Help Protect Funds at Risk
                                                                             Activities
To the extent permissible and within the confines and limitations
of an investigation, Special Agents share investigative intelligence with the
Ex-Im Bank’s Office of General Counsel, Credit and Risk Management Division,
and Asset Management Division to help identify potential and suspected fraudulent
activity within Ex-Im Bank transactions and to protect taxpayer funds at risk.

During this reporting period, the OIG communicated with Ex-Im Bank
management to enhance the monitoring of several existing transactions and due
diligence reviews of proposed transactions based on developed investigative leads. As
an example, the Office of Investigations shared active law enforcement intelligence
with Ex-Im Bank on 18 different matters concerning suspected criminal activity by
participants involved in active policies or transactions under review. As a result of
information provided, Ex-Im Bank cancelled several insurance policies and a lender’s
Master Guarantee Agreement resulting in a combined cost savings of $20,494,212.

Additionally during this reporting period, the OIG has made 38 referrals of
investigative information to the Ex-Im Bank Office of General Counsel concerning
potential fraud and funds at risk.

These efforts are part of the Office of Investigations’ objective to protect funds at
risk concurrent with on-going criminal investigations and to enhance Ex-Im Bank’s




                                                                                          Page 37
Office of Inspector General
Export-Import Bank of the United States



               existing capabilities in monitoring, oversight, and civil collection efforts involving
               transactions in which fraud is uncovered.



               OIG Combines Ef forts to Educate Export Community on
               Identifying and Reporting Fraud, Waste, and Abuse

               The OIG completed the development of a training presentation to help Ex-Im Bank
               staff and members of the lending and export communities recognize and report a
               variety of fraudulent schemes within several Ex-Im Bank programs. The effort was
               spearheaded by the OIG to help train peers in the law enforcement community and
               was expanded to educate stakeholders in the lending and export communities in
               order to help illustrate some recognizable fraud scenarios and fraud risks associated
               with Ex-Im Bank programs.

               On July 29, 2010, Ex-Im Bank OIG Special Agents combined efforts with the
               Federal Maritime Commission in Miami, Florida, to meet with senior staff at a
               local lending institution in order to present and discuss several fraud risks associated
               with exports. Various schemes involving false bills of lading and other shipping
               records were discussed with the participants who provided positive feedback and
               opportunities for enhanced lender oversight in Ex-Im Bank transactions. “Believe
               me, with all the checking we have in place today, a [false] bill of lading like that
               doesn’t stand a chance,” reported a lender representative.

               Joint training efforts and material were also finalized this reporting period with
               the Ex-Im Bank Office of Credit Review & Compliance in order to present fraud
               training to Ex-Im Bank staff in several training sessions during the upcoming FY
               2011.




Page 38
       Semiannual Report to Congress
             Office of Investigations




SUMMARY OF CLOSED
   INVESTIGATIONS
  NOT RELEASED TO
       THE PUBLIC




                                Page 39
Office of Inspector General
Export-Import Bank of the United States


                  SUMMARY OF CLOSED INVESTIGATIONS
                     NOT RELEASED TO THE PUBLIC

                       APRIL 1, 2010 – SEPTEMBER 30, 2010



1.        This investigation was initiated in               At the time this investigation was initiated by Ex-Im
coordination with the Department of Justice (DOJ)           Bank OIG, eight individuals had already been convicted
Civil Division to examine potential false claims act        and sentenced for their involvement in the fraud
damages by lender(s) resulting from an $80 million          scheme. Four other individuals have been indicted
dollar fraud scheme between 1999 and 2005 that was          by a federal grand jury in the District of Columbia
investigated and concluded by the FBI. In summary,          for their alleged involvement in the scheme — one has
our investigation found no evidence of reckless             died prior to trial and the others are pending arrest and
disregard or willful negligence by the lender in the        extradition from the Philippines.
transactions. The loan officer at the lending bank
declined to be further interviewed, however the FBI
                                                            Due to a lack of any evidence of reckless disregard or
reported no conclusive evidence of any wrongdoing
                                                            willful negligence on the part of the lender, the aged
or complicity on the part of the loan officer or other
                                                            dates and time frames involved in most transactions, and
lenders. Analysis of bank records reflected no undue
                                                            the fact that Ex-Im Bank continues to pursue recovery
compensation or unjust bonuses to the loan officer
                                                            efforts on each transaction, further investigation would
as a result of these loan approvals. A random sample
                                                            not have likely produced actionable results and did not
of several claims were reviewed and interviews were
                                                            appear cost beneficial to continue. This investigation
conducted with several borrowers who confirmed
                                                            was closed with the concurrence of DOJ Civil Division
meeting with lender representatives pursuant to their
                                                            on August 30, 2010. (Case No 07-0019-OGC-C)
loans. Examination of loan documents indicated
the lender did conduct several oversight steps such as
checking suppliers, exporters, and borrowers as well as
obtaining financial statements. Other documents and
correspondence were found showing communication
between the lender, brokers, suppliers, and exporters, to
include follow-up correspondence with exporters with
regard to delayed shipments. This correspondence was
not indicative of fraud or complicity on behalf of the
lender.




Page 40
                                                               Semiannual Report to Congress
                                                                     Office of Investigations




2. This investigation was initiated pursuant                  3. This investigation was initiated based
to a lead stemming from another active OIG                    on information concerning questionable activity by
investigation, in which evidence was found that a             an exporter’s associate in a $475,000.00 loan for the
foreign borrower contacted a U.S. exporter allegedly          export of three heavy pieces of equipment. It was
seeking an Ex-Im loan under false pretenses. There was        alleged that attempts to export this equipment failed
no dollar loss to the U.S. government because the loan        when Ex-Im Bank refused to finance the transaction
never materialized and was never guaranteed by Ex-Im          due to the exporter’s high default rate. The exporter
Bank. During the course of investigation, evidence            then allegedly used an associate as the exporter of
was found indicating that the borrower was willing to         record to get the loan approved. The loan defaulted
fraudulently secure the loan for cash, but was unable to      after three payments and Ex-Im Bank paid the claim
meet with the exporter or otherwise take any additional       in the amount of $252,616. The investigation and
steps in furtherance of the scheme. Financial analysis        financial analysis was able to prove that two of the heavy
failed to identify any connections which would further        equipment exports were fraudulent and orchestrated
the scheme and DOJ declined to pursue the matter              by the exporter in conjunction with other fraudulent
in the absence of any such evidence. Ex-Im Bank               activities already being addressed in another, on-going
OIG continued to monitor this borrower’s actions in           OIG investigation specifically concerning the exporter.
the course of the other related investigation with no         The other piece of equipment was actually shipped by
further evidence produced. Due a lack of prosecutable         the associate and there was no other evidence proving
evidence, the fact that there is no dollar loss to the U.S.   the associate had knowledge of, or participated in the
government, and no transactions in progress involved          other exporter’s fraud. Based on this information,
this subject, further investigation was deemed not to be      DOJ declined prosecution of the associate. This case
cost beneficial. This case was closed on June 10, 2010.       was closed on September 27, 2010, while the exporter’s
(Case No. 10-0007-AGT-C)                                      fraudulent activities continue to be pursued in another
                                                              investigation. (Case No. 10-0010-AMD-PI-C)




                                                                                                                Page 41
Office of Inspector General
Export-Import Bank of the United States




               THIS PAGE IS INTENTIONALLY BL ANK




Page 42
                                                               Semiannual Report to Congress
                                                                       Cross Reference Table

         CROSS-REFERENCE TO REPORTING REQUIREMENTS
                OF THE INSPECTOR GENERAL ACT
Set forth below are cross-references of the reporting requirements prescribed by the identified sections of the IG
Act to the specific pages in this Semiannual Report where they are addressed.


  CITATION                                REPORTING REQUIREMENTS                                         PAGE
 Section 4(a)(2) Review of legislation and regulations                                                    5-6

 Section 5(a)(1) Significant problems, abuses, and deficiencies                                           None

 Section 5(a)(2) Recommendations with respect to significant problems, abuses, and deficiencies           None

                    Prior significant recommendations on which corrective action has not been
 Section 5(a)(3)                                                                                         23 - 24
                    completed

 Section 5(a)(4) Matters referred to prosecutorial authorities                                           27 - 29

 Section 5(a)(5) Summary of instances in which information was refused                                    None

                    List of audit reports by subject matter, showing dollar value of questioned costs
 Section 5(a)(6)                                                                                          None
                    and recommendations that funds be put to better use

 Section 5(a)(7) Summary of each particularly significant report                                         12 - 19

 Section 5(a)(8) Statistical table showing number of reports and dollar value of questioned costs         None

                    Statistical table showing number of reports and dollar value of recommendations
 Section 5(a)(9)                                                                                          None
                    that funds be put to better use

                    Summary of each audit issued before this reporting period for which no
 Section 5(a)(10)                                                                                         None
                    management decision was made by end of reporting period

 Section 5(a)(11) Significant revised management decisions                                                None

 Section 5(a)(12) Significant management decisions with which the Inspector General disagrees             None

  Sections 5(a)
  (14), (15), &     Peer Review conducted and outstanding recommendations                                 None
       (16)



                                                                                                           Page 43
Office of Inspector General
Export-Import Bank of the United States




               THIS PAGE IS INTENTIONALLY BL ANK




Page 44
      Office of Inspector General (OIG) Hotline
Reporting Fraud, Waste, and Abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive
and investigate complaints or information concerning the possible existence of an
activity constituting a violation of law, rules, regulations, mismanagement, gross
waste of funds, abuse of authority, or a substantial and specific danger to the public
health and safety.

Whether reporting allegations via telephone, mail, or in person, the OIG will not
disclose the identity of persons making a report without their consent unless the IG
determines such disclosure is unavoidable during the course of the investigation.


Reporting Methods
You may submit your complaint or information by any of these methods:


In person:	   Office of Inspector General
		            Export-Import Bank of the United States
              811 Vermont Avenue, NW
              Washington, D.C. 20571


By Telephone: 1- 888-OIG-EXIM (1-888-644-3946)


By Mail:	     Ex-Im Bank OIG Hotline
              Office of Inspector General
              Export-Import Bank of the United States
              811 Vermont Avenue, NW
              Washington, D.C. 20571


By E-mail:	   IGhotline@exim.gov
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Ave. N. W.
Washington D.C. 20571
Or call: (202) 565-3908
